June 14, 2007

KATHLEEN AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:            Management Advisory – Management of Retail Workhours in Relation to
                    the Workload for Mobile Units – Triboro District
                    (Report Number DR-MA-07-004)

This report presents the results of our review of the management of retail workhours in
relation to the workload for mobile units (Project Number 05YG020DR000). Officials of
the New York Metro Area’s Triboro District, Cadman Plaza Station, asked the U.S.
Postal Service Office of Inspector General (OIG) to evaluate the workhours and the
related workload on mobile units. We began the review in November 2006 in response
to their request.

                                         Background
The Postal Service is striving to improve customer service and reduce operating costs
through optimum staffing by managing workhours in relation to the workload and
encouraging the right behavior at postal units. The Postal Service uses mobile units to
take the retail window services to customers in communities. The mobile units support
the Postal Service's strategy of generating revenue through Alternative Access
Channels.

There are 216 mobile units assigned to postal facilities nationwide, with 65 of them
(30 percent) assigned to the New York Metro Area. (See Appendix A.) In fiscal year
(FY) 2006, the New York Metro Area mobile units generated $8.6 million in retail
revenue and had operation costs of approximately $482,095.1 (See Table 1,
Appendix B.) The Triboro District had 11 of these mobile units, generating $1.9 million
in retail revenue.

The mobile units offer customers a wide range of postal products and services,
including stamps, money orders, Certified Mail™, Express Mail®, Priority Mail®, Air
Mail®, delivery confirmation, and international mail. The mobile retail stock is
accountable to an individual retail associate. The mobile units have integrated retail


1
    $7,416.82 per vehicle.
Management of Retail Workhours in Relation to                                                DR-MA-07-004
 the Workload for Mobile Units - Triboro District


terminal (IRT) machines that record revenue generated from the retail transactions
processed.

In FY 2006, the Postal Service implemented standard operating procedures to assess
retail efficiency. The Postal Service measures retail workload based on the number and
types of transactions processed through the Point-of-Service (POS) ONE system. This
information is converted to earned workhours2, and the results are used to help retail
managers align actual and earned workhours to improve their chances of meeting retail
efficiency goals. Mobile unit workhours are recorded in retail operation labor distribution
code (LDC) 45. During FY 2006, the New York Metro Area exceeded earned retail
workhours by 30 percent (1.67 million of 5.57 million hours). During the same period,
the Triboro District’s retail actual workhours exceeded earned workhours by 31 percent
(280,826 of 907,883 hours). (See Table 2, Appendix B.)

                            Objective, Scope, and Methodology
Our objective was to determine whether retail managers were effectively managing
workhours in relation to the workload on mobile units in the Triboro District.

We selected the New York Area’s Triboro District based on the request from officials of
the Triboro District’s Cadman Plaza Station. The Cadman Plaza Station has a large
variance between actual and earned workhours. We obtained data from the Postal
Service’s Enterprise Data Warehouse (EDW) 3 for FY 2006 to analyze total workhours
and earned hours. We obtained workhour data from the Postal Service’s Time and
Attendance Collection System (TACS) for FY 20064 to analyze total workhours,
overtime, penalty overtime, and retail operation code time charges. We interviewed
postal officials and reviewed documentation, policies and procedures pertaining to our
objective.

We conducted this review from November 2006 through June 2007 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We relied on data obtained from Postal Service database systems. We did not directly
audit the systems. We reviewed a sample of source documentation from the systems to
determine whether the data was sufficiently reliable to meet the objectives of this
review. We discussed our observations and conclusions with management officials on
April 23, 2007, and included their comments where appropriate.

                                       Prior Audit Coverage
The OIG has issued three audit reports directly related to our review objective.
Appendix D lists the reports.

2
  Earned workhours are budgeted workhours.
3
  The EDW is the repository for managing the Postal Service’s corporate data assets.
4
  The TACS provides for daily and weekly recording of employees’ time and attendance data.




                                                        2
Management of Retail Workhours in Relation to                         DR-MA-07-004
 the Workload for Mobile Units - Triboro District



                                                    Results
We could not determine whether Triboro District retail managers effectively managed
workhours in relation to the workload for mobile units. Currently, mobile unit retail
transactions are recorded in the IRT versus the POS. Therefore, detailed workload
information (number and type of transactions) are not captured and converted to earned
workhours. Since actual workhours cannot be matched to a mobile unit’s earned
workhours, data is not readily available to analyze the effectiveness of mobile unit
workload management. During FY 2006, the Cadman Plaza Station’s actual workhours
totaled 35,776, of which 7,371 hours were associated with mobile units. In comparing
the FY 2006 earned workhours of 17,921 to the actual workhours (35,776), Cadman
Plaza Station used almost twice the amount of their earned workhours. Since the actual
workhours included the mobile unit’s time but the earned workhours did not, we could
not determine the impact mobile unit operations had on the Cadman Plaza Station
workhour efficiency.

In addition, we noted that there are no standard operating procedures for mobile units.
The current Handbook for Retail Operations, Handbook PO-209 (the Handbook) does
not include standard procedures for mobile units incorporating, at a minimum,
instructions on site selections, revenue goals, or workhour management. Also, mobile
unit associates do not have performance standards or revenue goals to measure
expected results. Further, officials said they did not perform periodic site visits to
monitor mobile unit activity and assess the associates’ performance.

We discussed our results with Postal Service Headquarters officials, who agreed with
our finding. In December 2006, Postal Service Headquarters officials stated that they
were developing a methodology for incorporating IRT data into the workhour analysis,
as well as mobile unit standard procedures; however, as of April 2007, this had not
been distributed to Area officials for implementation.

Recommendations

We recommended the Vice President, Delivery and Retail:

1. Revise the Handbook for Retail Operations, PO-209, to include standard procedures
   for mobile units incorporating, at a minimum, instructions on site selection, revenue
   goals, and workhour management.

2. Distribute the revised Handbook for Retail Operations, PO-209, to Area officials for
   implementation.




                                                       3
Management of Retail Workhours in Relation to                           DR-MA-07-004
 the Workload for Mobile Units - Triboro District


Management’s Comments

Management agreed with our finding and recommendations, and has initiatives planned
addressing the issues in this report. Management provided comments based on our
discussion draft, and in subsequent discussions with the OIG, management stated that
by the end of Quarter 1 of FY 2008, they will revise the Handbook for Retail Operations,
PO-209, to include standard procedures for mobile units incorporating, at a minimum,
instructions on site selection, revenue goals, and workhour management. They will also
distribute the revised Handbook to New York Metro Area officials for implementation.
They will also distribute the revised Handbook to New York Metro Area officials for
implementation. Management also stated they have a draft methodology for the
Integrated Retail Terminals for implementation by end of the Quarter 3, FY 2007. All
areas will be provided this information. Management’s comments are included in
Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2. Management’s
actions taken and planned should correct the issues identified in the finding. The OIG
considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R Donahoe
    William P. Galligan
    Fredrick J. Hintenach
    David L. Solomon
    Lily Jung Burton
    Katherine S. Banks




                                                    4
Management of Retail Workhours in Relation to                                                                                DR-MA-07-004
 the Workload for Mobile Units - Triboro District



                                                                           APPENDIX A

                                             MOBILE UNIT FLEET BY POSTAL AREA
                                                   AS OF NOVEMBER 2006
                                                          Chart 1. Mobile Unit Fleet by Postal Area
                                                                   As of Novem ber 2006


                                              80
                                                       65
                                              70       30%
                    Number of Mobile Units




                                              60

                                              50

                                              40
                                                                  25
                                                                           22         21
                                              30                 12%                       20      19
                                                                           10%       10%                 18
                                                                                           9%      9%   8%         14       12
                                              20                                                                   6%       6%
                                              10

                                               0




                                                                                                                       ro
                                                                                 s
                                                             t




                                                                                             st




                                                                                                               n
                                                                     fic




                                                                                            rn
                                                  rk




                                                                                              t
                                                           as




                                                                              ke




                                                                                           es




                                                                                                                     et
                                                                                                            er
                                                                                         ea
                                               Yo




                                                                                          te
                                                                   ci
                                                         he




                                                                                                                    lM
                                                                            La




                                                                                                          st
                                                                                      hw
                                                                 Pa




                                                                                     es
                                                                                       th




                                                                                                        Ea
                                                       ut
                                              ew




                                                                                                                 ito
                                                                                    or


                                                                                   ut
                                                                         at




                                                                                   W
                                                     So




                                                                                  N


                                                                                 So
                                                                       re
                                             N




                                                                                                               ap
                                                                       G




                                                                                                              C
                                                                                     Postal Area




                                                   Source: U.S. Postal Service Vehicle Maintenance and Accounting
                                                   System (VMAS)




                                                                                      5
Management of Retail Workhours in Relation to                                               DR-MA-07-004
 the Workload for Mobile Units - Triboro District


                                               APPENDIX B

            SUMMARY OF REVENUE AND OPERATING COST
       AND ACTUAL WORKHOURS VERSUS EARNED WORKHOURS
                     FOR FISCAL YEAR 2006
                                    Table 1. New York Area Mobile Unit Fleet
                                Summary of Revenue and Operating Costs for FY 2006




                                                Redacted



                   Source: U.S. Postal Service VMAS and Enterprise Data Warehouse (EDW)

                                             Table 2. New York Area
                         Comparison of Actual Workhours to Earned Workhours for FY 2006

                                                                                                       Retail
                                                                                                     Efficiency
                                                                   Variance        Percentage       Percentage
                                  District’s      District’s       Between         Variance of      for LDC 45
                                   Actual          Earned         Actual and        Actual to        (Ratio of
      New York Area              Workhours       Workhours          Earned          Earned           Earned to
        Districts               for LDC5 45      for LDC 45       Workhours        Workhours          Actual)

    New York City                 1,666,939           935,252          731,686                44              56
    Triboro6                      1,188,710           907,883          280,826                24              76
    Caribbean                       650,824           530,173          120,650                 9              91
    Northern New Jersey           1,310,373         1,119,657          190,715                15              85
    Central New Jersey              735,873           642,529           93,343                13              87
    Long Island                   1,022,293           813,019          209,274                21              79
    Westchester                     682,266           630,704           51,561                 8              92

    Grand Totals                  7,257,278       5,579,2207         1,678,057                23              77
                                                 Source: U.S. Postal Service EDW




5
  Labor Distribution Code (LDC).
6
  Triboro District’s retail actual workhours exceeded earned workhours by 31 percent (280,826 of 907,883 hours).
7
  Difference due to rounding.




                                                         6
Management of Retail Workhours in Relation to             DR-MA-07-004
 the Workload for Mobile Units - Triboro District


                                             APPENDIX C

                               MANAGEMENT’S COMMENTS




                                                    7
Management of Retail Workhours in Relation to           DR-MA-07-004
 the Workload for Mobile Units - Triboro District




                                                    8
Management of Retail Workhours in Relation to                                        DR-MA-07-004
 the Workload for Mobile Units - Triboro District


                                             APPENDIX D

                                  PRIOR AUDIT COVERAGE


        Audit              Report Number               Issued Date                         Findings
Function 4 – Customer      DR-AR-04-014             September 30, 2004   The Postal Service can improve the
Service Operations                                                       effectiveness and efficiency of the
                                                                         Function 4 customer service process in
                                                                         meeting or exceeding its program
                                                                         goals of monitoring and measuring
                                                                         potential savings in customer service
                                                                         operations. Specifically, Postal Service
                                                                         managers could improve customer
                                                                         service operations by fully using the
                                                                         Standardized Function 4 Reviews and
                                                                         sharing proven practices.
Management of Retail        DR-AR-06-006              August 9, 2006     Opportunities exist for the Triboro
Workhours in Relation                                                    District to improve the management of
to the Workload – New                                                    workhours to workload by
York Area, Triboro                                                       implementing best management
District                                                                 practices from the Southwest Area, Rio
                                                                         Grande District. From January through
                                                                         May 2005, retail managers in the New
                                                                         York Area’s Brownsville, Bushwick,
                                                                         Cadman Plaza, and Flatbush postal
                                                                         facilities could not support
                                                                         approximately 46 percent of their retail
                                                                         associate employee LDC 45 workhours
                                                                         by the workload. As a result, the
                                                                         Triboro District incurred LDC 45
                                                                         overtime expenses that were not
                                                                         supported by workload. Unsupported
                                                                         overtime cost approximately $20,166
                                                                         for 75 days of a 5-month period.
Fiscal Year 2005 New        FF-AR-06-140              April 24, 2005     In the New York Metro Area, based on
York Metro Area                                                          the items reviewed, financial
Financial Installation                                                   transactions for these audits were
Audits                                                                   reasonably and fairly presented in the
                                                                         accounting records, and generally, the
                                                                         internal controls examined were in
                                                                         place and effective. Accountability
                                                                         examinations of six mobile units were
                                                                         conducted at a total value of $90,335.
                                                                         The audit report identified shortages
                                                                         totaling $2,772 and overages totaling
                                                                         $157.




                                                        9
